OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/GHANA’S
MALARIA PROGRAM


AUDIT REPORT NO. 7-641-11-011-P
SEPTEMBER 22, 2011




DAKAR, SENEGAL

Office of Inspector General


September 22, 2011

MEMORANDUM

TO:                 USAID/Ghana Mission Director, Cheryl Anderson

FROM:               Acting Regional Inspector General, Van Nguyen /s/

SUBJECT:            Audit of USAID/Ghana’s Malaria Program (Report No. 7-641-11-011-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included them in Appendix II. 


The report includes five recommendations. Final action has been taken on Recommendations 1,

4, and 5, and management decisions have been reached on Recommendations 2 and 3. 

Please provide the Audit Performance and Compliance Division in the USAID Office of the Chief 

Financial Officer with the necessary documentation to achieve final action. 


I appreciate the cooperation and courtesy you extended to my staff during the audit.





U.S. Agency for International
Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov/oig
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings................................................................................................................. 4 


     Net-Hanging Campaign Increased Bed Net Usage .................................................... 4 


     Implementer Data Errors Went Undetected by the 

     Mission and the Implementer ...................................................................................... 5 


     The Prevention and Treatment Program’s Management 

     Plan Did Not Track Needed Data ................................................................................ 8 


Evaluation of Management Comments....................................................................... 10 


Appendix I – Scope and Methodology ........................................................................ 11 


Appendix II – Management Comments ....................................................................... 13 


Appendix III – Mission Performance ........................................................................... 18 




      Abbreviations

      The following abbreviations appear in this report:

      ADS             Automated Directives System
      DQA             data quality assessment
      FY              fiscal year
      NMCP            National Malaria Control Program
      OIG             Office of Inspector General
      PMI             President’s Malaria Initiative
      PMP             Performance Management Plan
      ProMPT          Promoting Malaria Prevention and Treatment program
SUMMARY OF RESULTS
The Ghana Health Service reported 3.7 million cases of malaria in the country in 2009. The
same year, the World Health Organization found that malaria accounted for 25 percent of all
deaths of children under five.1 In its 2009 Malaria Operational Plan, USAID/Ghana reported
that, in Ghana, “Malaria is a major cause of morbidity and mortality directly contributing to
poverty, low productivity, and reduced school attendance.”

Because of this high malaria burden, Ghana is one of 17 countries2 benefiting from the
President’s Malaria Initiative (PMI), a U.S. Government multi-year initiative3 led by USAID and
implemented with the Centers for Disease Control and Prevention. PMI aims to scale up
malaria prevention and treatment interventions rapidly in high-burden countries in sub-Saharan
Africa to reduce malaria-related mortality in each by 50 percent. This goal will be achieved by
reaching the most vulnerable groups—pregnant women and children under five years of age—
with proven preventive and therapeutic interventions, including artemisinin-based combination
therapy treatments (medicine to treat malaria), insecticide-treated bed nets (which prevent
contact with mosquitoes), intermittent preventive treatments for malaria in pregnancy (medicine
to prevent malaria in pregnant women), and indoor residual spraying with insecticides (spraying
interior walls to kill or repel mosquitoes that spread malaria).

During fiscal year (FY) 2009 and 2010, the mission worked to implement these activities through
cooperative agreements and task orders with 13 prime partners. USAID’s Regional Inspector
General in Dakar selected for audit the three largest programs, shown in the table below.

                                             Audited Programs
                                                                                Agreement/Task Order
    Implementing
                                           Program                               Amount      Type and
    Partner
                                                                                ($ million)    Dates
                    The DELIVER project procures malaria treatment                 8.67     Washington-
                    and prevention supplies and transports them to             (expended    based Task
    John Snow
                    health facilities. It also provides technical assistance   for Ghana,      Order
    Inc.
                    to Ghana’s National Malaria Control Program                 FYs 2009      4/2007-
                    (NMCP).                                                    and 2010)      4/2012
                                                                                   6.96     Washington-
                    The indoor spraying program sprays households in           (expended    based Task
    RTI
                    the Northern Region of Ghana with residual                 for Ghana,      Order
    International
                    insecticide.                                                FYs 2009      9/2009-
                                                                               and 2010)      9/2014
                    The Promoting Malaria Prevention and Treatment                          Cooperative
    University
                    (ProMPT) program strengthens the capacity,                              Agreement
    Research                                                                       15.4
                    effectiveness, and reach of the NMCP and supports                        3/2009–
    Company
                    all key actors in malaria prevention and control.                         3/2012

1
 World Malaria Report 2010, World Health Organization, 2010.

2
 Countries include Angola, Benin, Democratic Republic of the Congo, Ethiopia, Ghana, Kenya, Liberia,

Madagascar, Malawi, Mali, Mozambique, Nigeria, Rwanda, Senegal, Tanzania, Uganda, and Zambia.

3
 Section 303 (“Assistance to Combat Malaria”) of the Tom Lantos and Henry J. Hyde United States 

Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008, P.L. 110-
293 (the Lantos-Hyde Act) authorizes $5 billion to be appropriated during the 5-year period beginning on

October 1, 2008, to combat malaria. This provision is codified at 22 U.S.C. 7633.




                                                                                                          1
USAID/Ghana’s FY 2009 and 2010 obligations for PMI totaled $11.6 million and $19.3 million,
respectively. The mission expended $10.3 million during FY 2009 and $15.5 million during FY
2010 for PMI activities.

The Office of Inspector General (OIG) conducted this audit to determine whether
USAID/Ghana’s PMI program was achieving its goals of reducing malaria-related illnesses and
deaths through effective prevention and treatment interventions.

The audit determined that the program was achieving key results related to preventing and
treating malaria during the period audited (Appendix III). During the two fiscal years audited, the
mission exceeded its target for purchasing 1.3 million nets by purchasing 1.4 million nets, which
can greatly reduce the risk of malaria infection. Moreover, the mission greatly contributed to a
successful and pioneering door-to-door net-hanging campaign and used several channels of
behavior-change communications that resulted in a near doubling of the rate of bed net usage.
USAID/Ghana also exceeded its indoor spraying target by providing indoor spraying to 141,621
of a targeted 126,210 houses in FY 2009 and 169,924 of a targeted 157,660 houses in FY
2010. Such spraying reduces the risk of malaria infection by killing mosquitoes before they
transmit malaria to another person. The mission’s indoor spraying program also promoted
entomologic training and research and provided training and employment opportunities that
contributed to capacity building in this sector for the country.

However, some results were not obtained, for reasons beyond the mission’s control. Although
the mission intended to train 29,841 people in malaria treatment or prevention over the 2 years
audited, it trained only 22,527 people. This shortfall occurred because the mission and
programs had to delay implementation until Ghana’s Ministry of Health established the training
curriculum. Moreover, although the mission had procured enough malaria treatment medication
to meet national demand (1,142,759), the mission fell short of its target for the number of
treatments procured for the 2-year period (2,350,000) because other donors stepped in to
contribute more medication, decreasing the amount that the mission needed to purchase. This
development allowed the mission to focus these dedicated resources elsewhere.

The audit found positive impact from malaria activities as well as areas for improvement.
Specifically, the audit determined that:

	   The net-hanging campaign increased bed net usage (page 4).

	   Errors in spraying data went undetected (page 5).

	   The Prevention and Treatment Program’s management plan did not track needed data
     (page 8).

To address these issues, the audit team recommends that USAID/Ghana:

1. 	 Establish and implement a plan to improve verification of spray data (page 8).

2. 	Update Mission Order 203-1 to require data verification and documentation as part of
    activity managers’ site visit activities (page 8).

3. 	Include data validation for all PMI indicators in the planned data quality assessment
    (page 8).



                                                                                                 2
4. 	 Update the performance management plan (PMP) for the ProMPT program to include and
     allow tracking of PMI-reported indicators (page 9).

5. 	Develop and implement a plan for the ProMPT program to verify data reported to the
    mission (page 9).

Detailed findings appear in the following section. Our evaluation of management’s
comments is on page 10. Appendix I contains a description of the audit scope and
methodology. USAID/Ghana's written comments on the draft report appear in Appendix II.




                                                                                         3
AUDIT FINDINGS 

Net-Hanging Campaign Increased
Bed Net Usage
PMI aims to have 85 percent of groups that are vulnerable to malaria (pregnant women and
children under the age of five) sleep under an insecticide-treated net each night. However, a
study conducted by the ProMPT program in December 2009 in Ghana’s Central Region found
that only 12 of 30 bed net owners (40 percent) were using their nets. Furthermore, the 2008
Ghana Demographic and Health Survey4 found that only 41 percent of children under five slept
under any type of bed net the night before the survey, and this figure dropped to between 10
and 11 percent for vulnerable groups using an insecticide-treated net in Ghana’s Northern
Region. The same study found that only 41 percent of pregnant women living in rural settings
slept under any type of bed net the night before.

In an effort to increase the number of pregnant women and children under five years old
sleeping under bed nets, USAID/Ghana worked with the ProMPT program and DELIVER project
and in partnership with the Government of Ghana and other donors to implement a bed net
distribution and hanging campaign in May 2010 in all 20 districts of Ghana’s Northern Region,
where there is perceptible seasonal variation in the transmission of malaria. The assumption
was that by providing the resources to ensure the bed nets were hung properly, the
beneficiaries would be more likely to use them. The campaign recruited and compensated
community members to visit all households in the region to determine the number of bed nets
needed to cover vulnerable groups. Using the results of this survey, USAID provided 562,737
bed nets through the DELIVER project. A crew of volunteers trained and organized by ProMPT
and other donors not only distributed the nets to the targeted beneficiaries, but also hung the
nets in beneficiaries’ residences to help encourage use.

During visits to 57 beneficiaries of this campaign (pregnant women and children under five in
the Northern Region), the audit team found that 79 percent had slept under a campaign-
provided, insecticide-treated net the night before (Figure 1). This finding represents a near
doubling of the precampaign data for Ghana and an almost 800 percent increase over the
Northern Region data (which was for children only). Furthermore, the high usage rate indicates
a significant step toward reaching the PMI goal of 85 percent coverage for these vulnerable
groups.




4
 Ghana Demographic and Health Survey 2008, Ghana Statistical Service and Ghana Health Service,
September 2009.

                                                                                             4
                         Figure 1. Net Usage by Vulnerable Groups*




 * Percentage of survey respondents who reported that they had slept under a bed net the previous 

 night. 


Of the beneficiaries interviewed, 88 percent stated that they were using the net because of
guidance from volunteers carrying out the Ghana Health Service campaign, who had received
training and substantial support from the ProMPT program. ProMPT supported communication
of behavior-change messages to the region through radio, local nongovernmental organizations,
and even religious leaders. In addition, RTI trained the sprayers to remind beneficiaries to
rehang their nets following the indoor spraying visits.

USAID/Ghana’s efforts have increased net usage. The increase in net usage can be attributed
to the net-hanging campaign, as well as to other activities that the mission used to maximize its
resources. Although net distribution from fixed locations such as clinics or retail outlets has
been going on throughout Ghana for several years, this was one of the first mass distribution
and hanging campaigns in Ghana. Recognizing the pioneering technique of the program, the
Alliance for Malaria Prevention named Ghana “Lead Innovator” for the distribution of long-lasting
insecticide nets in 2011.

Although reliable current data on the malaria prevalence in the Northern Region was not
available at the time of our audit, the PMI 2010 Annual Report states that the use of bed nets by
pregnant women and by children under five reduces malarial illnesses by up to 50 percent. The
Government of Ghana plans to conduct a large Demographic and Health Survey in 2012, which
should further illustrate progress toward achieving PMI goals in the Northern Region.

Implementer Data Errors
Went Undetected by the Mission
and the Implementer
Section 203.3.5.1 of USAID’s Automated Directives System (ADS) states that USAID missions
should ensure that performance data meet five data quality standards—validity, integrity,
precision, reliability, and timeliness. Accordingly, Section C.2 of USAID/Ghana’s Mission
Order 203-1 states that it is necessary for the mission to “critically appraise its performance
measurement systems and data sources from time to time to ensure that the indicators continue

                                                                                                      5
to measure what they are intended to measure, and that data are collected in the manner that
was initially intended.” Consequently, the first objective of RTI’s monitoring and evaluation plan
is to “sustain an efficient data flow system that will carry accurate and timely information from
the spray operator level to the central level with minimum opportunities for error.” Finally,
ADS 203.3.5.2 states that data quality assessments (DQAs) are required “at some time within
the three years before submission” of data to Washington for Government Performance and
Results Act reporting purposes or for reporting externally on USAID performance, and are
intended to ensure that teams are aware of the strengths and weaknesses of the data.

During the 2010 spray campaign, the collection of data (process shown in Figure 2) began with
spray operators. Each spray operator completed a card for each day of spraying, showing the
number of structures found, the number sprayed, the number of people protected, and other
details regarding the structures sprayed. At the end of each day, a spray team leader collected
the operator cards from his or her team (usually consisting of four operators), verified the cards’
accuracy, and summarized the data on a team leader card. The team leader passed his card
and his operators’ cards to the district data clerk. The district data clerk was to verify the
accuracy of this data, enter the team leaders’ data into a spreadsheet, and send it to the RTI
Northern Region main office for daily calculations and, ultimately, further verification by the data
manager of the indoor spraying program.

                            Figure 2. RTI’s 2010 Daily Data Reporting 

                                             Process



                                         Spray Operator



                                  Team Leader (data verified)



                             District Data Clerk (data verified and
                                       entered into Excel)



                           Data Manager (consolidates into country
                                           data)



The audit’s review of the indoor spraying data revealed the following intentional and
unintentional errors that neither the mission nor the partner detected during data verification.

Intentional Overreporting of Spray Results. Several team leaders’ reporting cards contained
falsified data. Specifically, 19 percent of the team leader cards (6 of 32) reviewed for two
subdistricts were manipulated to increase either the number of structures found, the number of
structures sprayed, the number of people protected by spraying, or a combination of all three
primary indicators reported to USAID/Ghana. The overstatements ranged from 30 to 320
percent. The main technique used to falsify the data was to overwrite the spray operators’
reported number, generally in multiples of ten or more. Besides inflated numbers, the
overwritten cards contained the names of fictional beneficiaries, along with those of possibly

                                                                                                  6
fictional spray operators and accompanying data. Many of these manipulations should have
been obvious to any reviewer based on the crude way they were conducted. While some
individual team leaders’ cards showed overstatements of more than 80 percent for the number
of people protected by spraying, the effect of the manipulation on the overall program data was
immaterial, since these incidents appeared to be limited to the data of two of the eight
subdistricts reviewed. Speculating that the team leaders manipulated data in an effort to
outshine or remain equal with their peers in order to maintain their jobs, the chief of party stated
that he would identify the responsible parties and take necessary action.

Unintentional Data-Entry Errors. Data clerks made errors while entering data into the RTI
spreadsheet. Specifically, in one district, the audit team noted differences between data on
team leaders’ cards and data in the spreadsheet for 13 of the 19 cards verified (68 percent) for
the number of structures found, number of structures sprayed, and number of people protected.
Although the problem was quite prevalent in this one district, a brief review of data entry in a
second district did not reveal any data-entry errors. Fortunately, even with this high error rate,
the overall misstatement of data in the sample was less than 3 percent for each of the three
indicators. The chief of party suspected that time pressure on the district data clerks was the
most likely cause for the data-entry errors. Each day, the district data clerks receive the spray
operator data in late afternoon when the spray teams return from their spraying activities. RTI’s
end-of-business-day deadline for data submission means that the data clerks must review and
enter data for more than 60 spray teams in 2 hours under less-than-ideal working conditions.

These problems went undetected because of a lack of monitoring and verification of reported
data by both the partner and the mission. Even though RTI’s monitoring and evaluation policy
requires it to verify 10 percent of all spray cards, the quality of this review was not sufficient to
identify the errors. Additionally, the controls already in place—requiring team leaders and data
clerks to sign that they verified the data—were not effective; the audit team noted that errors
existed even when signatures of approval were present.

The mission also has a responsibility for data verification. Although the mission conducted as
many as nine site visits per year to monitor spraying activities to ensure performance and
environmental compliance, the site visits did not include the data verification necessary to
identify these types of errors. The fact that RTI maintains data printouts at the district offices
instead of at its regional or Accra office limited the mission’s ability to verify data. Furthermore,
the health office’s most recent DQA, conducted in April 2008, did not include data validation for
the indoor spraying activities because the program had not yet generated any reportable data.
The mission planned to hold its next program wide assessment of health data quality in July
2011.

The mission and RTI noticed some problems with erroneous data in 2010 and, at the time of the
audit, had already taken some steps to improve data accuracy. However, the prevalence of
both intentional and unintentional errors in the spraying data could result in RTI reporting
erroneous data to USAID, PMI, and Congress. Although the samples tested by the audit team
did not indicate that the overall data was materially misstated, insufficient partner and mission
data monitoring could permit significant misstatements to occur and be reported in the future.
Erroneous data may affect partner and USAID decisions and perceptions regarding program
performance. Furthermore, failure to detect intentional data inflation could lead to an increase
in the prevalence and significance of misstatements, as the dishonest parties find that the
misstatements have gone undiscovered.




                                                                                                   7
   Recommendation 1. We recommend that USAID/Ghana work with RTI International to
   establish and implement a plan that increases the frequency and thoroughness of RTI’s
   spray data verification efforts.

   Recommendation 2. We recommend that USAID/Ghana update Mission Order 203-1
   to require activity managers to perform and document periodic data testing as part of
   their monitoring visits.

   Recommendation 3. We recommend that USAID/Ghana include data validation for all
   President’s Malaria Initiative indicators in the planned data quality assessment for health
   programs.

The Prevention and Treatment
Program’s Management Plan Did
Not Track Needed Data
In the ProMPT cooperative agreement, USAID requires University Research Company to
prepare a performance management plan (PMP) to “objectively assess the overall progress and
impacts of project activities with the ultimate goal of achieving the expected PMI results.” The
agreement further requires that the PMP “include the core PMI indicators.” The program
description integrated into the agreement states that ProMPT’s PMP will track indicators such
as the number of people trained, which will be drawn from project records and generally be
reported on through project quarterly reports.

For a PMP to be effective, it must include indicators used by stakeholders to judge the
effectiveness of the activities. One of the indicators listed in the PMI planning document
“Monitoring and Evaluation Indicators to be Used within the President’s Malaria Initiative” is
Number of people (medical personnel, health workers, community workers, etc.) trained in
malaria treatment or prevention. Although this was one of the five indicators the mission
included in its FY 2010 Performance Plan and Report—the mission reported 14,008 people
trained in 2010, 8,383 of them through ProMPT—this indicator did not appear in the ProMPT
PMP.

The absence of this indicator from the PMP meant that the ProMPT program did not separately
track the total number of people trained in malaria treatment or prevention during the year.
ProMPT contracted with an outside company to develop a monitoring and evaluation software
package to track data in accordance with the program’s PMP. Although this software allowed
ProMPT’s monitoring and evaluation staff to track the number of people trained in malaria case
management and in the treatment of malaria in pregnancy, the software did not allow staff to
record numbers of people trained in net hanging and preregistration for the net campaign or the
numbers of people trained by sub-grantees.

Because of this shortcoming, when the mission requested ProMPT’s results for the number of
people trained in malaria prevention or treatment to report in its FY 2010 Performance Plan and
Report, a lengthy back-and-forth discussion was required to determine which trainees to include
in the total. The result was a number made up of multiple groups of trainees that was not based
on solid data from ProMPT’s monitoring and evaluation team. For example, ProMPT reported
1,189 people trained by its sub-grantee organizations. During the audit, the monitoring and
evaluation team was not readily able to support this number because its software package was
not programmed to capture this information. ProMPT’s monitoring and evaluation team could
provide ready support for only 35 percent of people reported as trained. For the remainder, the

                                                                                                 8
monitoring and evaluation team had to turn to other program offices or even to partners to
gather the supporting documentation.

This situation resulted from the failure of the mission and ProMPT to ensure that the program’s
PMP included the required primary malaria indicators used for reporting purposes. Additionally,
failure to require ProMPT to report on this standard indicator more often than annually makes it
difficult for the mission to track ProMPT’s progress toward meeting its annual targets as well as
the mission’s. The audit team noted that, in spite of the difficulties in reporting data for this
indicator in 2010, ProMPT had not updated its monitoring and evaluation system to track total
people trained for FY 2011. If the mission requests the same indicator data for FY 2011
reporting purposes, ProMPT officials stated that they would likely encounter similar problems.

   Recommendation 4. We recommend that USAID/Ghana, in conjunction with University
   Research Company, include and allow tracking of standard President’s Malaria Initiative
   indicators in the Promoting Malaria Prevention and Treatment Program’s performance
   management plan.

   Recommendation 5. We recommend that USAID/Ghana, in conjunction with University
   Research Company, develop and implement a plan for the Promoting Malaria
   Prevention and Treatment Program to verify data reported to the mission.




                                                                                               9
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Ghana agreed with all five recommendations in the draft report. Having reviewed the
actions taken by the mission and the supporting documentation provided, we have determined
that final action has been taken on Recommendations 1, 4, and 5, and management decisions
have been reached on Recommendations 2 and 3. In addition, we have clarified the report
based on the mission’s requests. Our evaluation of management comments is shown below.

Recommendation 1. USAID/Ghana has developed a data verification plan that includes more
frequent site visits as well as better controls over data collection that will increase the
confidence in reported data. Accordingly, final action has been taken on this recommendation.

Recommendation 2. USAID/Ghana agreed with this recommendation and intends to update
Mission Order 203-1 by October 31, 2011. Accordingly, a management decision has been
reached on this recommendation.

Recommendation 3. USAID/Ghana agreed with the recommendation and intends to conclude
a DQA for all health indicators, including PMI indicators, by October 30, 2011. Accordingly, a
management decision has been reached on this recommendation.

Recommendation 4. USAID/Ghana agreed with the recommendation and included mission-
reported standard PMI indicators in the new ProMPT PMP, which was approved on August 31,
2011. Accordingly, final action has been taken on this recommendation.

Recommendation 5. USAID/Ghana agreed with the recommendation and, in conjunction with
ProMPT, revised its Activity Record-Keeping Procedures and Processes for implementation on
September 1, 2011, to ensure data reported are valid, verified, and supported. Accordingly,
final action has been taken on this recommendation.




                                                                                           10
                                                                                            Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Dakar conducted this performance audit in accordance with
generally accepted government auditing standards.5 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions, in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis. The objective of the audit was to determine whether
USAID/Ghana was achieving its PMI goals of preventing and treating malaria.

In planning and performing the audit, the audit team assessed management controls related to
management review, proper execution of transactions and events, and performance targets and
indicators. Specifically, we reviewed and evaluated the following:

     FY 2009 and 2010 Malaria Operational Plans
     FY 2009 and 2010 Performance Plans and Reports
     Mission portfolio reviews
     Implementing partner agreements and task orders
     Implementing partner work plans
     Implementing partner annual reports
     Certification required under the Federal Managers’ Financial Integrity Act of 19826

We interviewed key USAID/Ghana personnel, implementing partner staff, collaborating partner
staff, program beneficiaries, and Government of Ghana officials. We conducted the audit at
USAID/Ghana in Accra and at the office and activity sites of the implementing partners in Accra
and the Northern Region. Audit fieldwork was conducted from May 16 to June 1, 2011. The
audit covered PMI activities that took place in FYs 2009 and 2010.

USAID/Ghana’s FY 2009 and 2010 obligations for PMI totaled $11.6 million and $19.3 million,
respectively. The mission expended $10.3 million during FY 2009 and $15.5 million during
FY 2010 for PMI activities.

Methodology
To answer the audit objective, we reviewed activities implemented under the DELIVER project,
the indoor spraying program, and the ProMPT program for compliance with the approved work
plans and agreements/task orders and for sufficient documentation to support reported results.
We also reviewed agreements, progress reports, financial reports, and performance data of the
implementing partners. We reviewed applicable laws, regulations, and USAID policies and
procedures pertaining to USAID/Ghana’s malaria program, including certification required under
the Federal Managers’ Financial Integrity Act of 1982, guidance from USAID’s ADS,
USAID/Ghana mission orders, and project-specific regulations.



5 Government    Auditing Standards, July 2007 Revision (GAO-07-731G).
6   Public Law 97-255, as codified in 31 U.S.C. 3512.


                                                                                                   11
                                                                                      Appendix I


We interviewed program and monitoring and evaluation staff at USAID/Ghana, as well as staff
at the implementing partners’ offices in Accra and at the Government of Ghana’s Ministry of
Health.

We also performed site visits in the Northern Region of Ghana to observe indoor spraying, bed
net distributions, and other PMI activities. Using a judgmental sample, we reviewed data at four
of the eight districts where indoor spraying activities occurred during FYs 2009 and 2010. This
sample constituted approximately 5 percent of the total for the indicators reported by the
partner. During these site visits, we observed indoor spraying activities in action, interviewed
individuals who were conducting the activities, and interviewed spraying beneficiaries. We
compared reported spraying data with actual observations.               We also interviewed 57
beneficiaries of the net distribution and hanging campaign conducted in the Northern Region in
May 2010. The sample of sites visited was chosen based on activities that (1) were in progress
during the time of our fieldwork, (2) were located in the areas where the project was being
implemented, (3) were accessible given audit time restrictions, and (4) were representative of
the activities being implemented.

The indicators for which we attempted to verify results were the following:

	 Number of insecticide-treated nets purchased with U.S. Government funds

	 Number of houses sprayed with U.S. Government support

	 Number of people trained with U.S. Government funds in malaria treatment or prevention

	 Number of malaria treatment drugs purchased and distributed through U.S. Government
   support.

The results from the judgmental sample cannot be projected to the universe of all activities on a
statistical basis. However, we believe that our work provides a reasonable basis for our
conclusions.




                                                                                              12
                                                                                     Appendix II



MANAGEMENT COMMENTS 




                       Management Response 

DATE:	                September 1, 2011

TO: 	                 Gerard Custer, Regional Inspector General

FROM: 	               Peter Argo, Acting Mission Director, USAID/Ghana

SUBJECT: 	            Draft Audit Report of USAID/Ghana’s Malaria Program
                      Audit Report No. 7-641-11-00X-P


The Mission thanks the audit team for their professionalism, their diligent work on data
collection and write-up, and for the open communication during and after the audit on the
findings and recommendations.

This memorandum is to report on actions taken to address the recommendations included in the
above referenced Draft Audit Report and to clarify some statements in the body of the report.
USAID/Ghana requests RIG/Dakar concurrence with our management decisions described
below:

Recommendation No 1:
We recommend that USAID/Ghana work with Research Triangle Institute to establish and
implement a plan that increases the frequency and thoroughness of Research Triangle Institute’s
data verification efforts.

Management Decision and Action Taken:
The Mission shares the auditors concern regarding data verification. During the May-August
2011 spray round (i.e. during and after the audit), RTI established and implemented a robust data
verification plan. A summary of actions taken is attached as Attachment 1. Key features of this
improved regimen include: (1) Data is now collected from the primary source (the spray
operator card) and entered directly into a newly installed MS Access based system, eliminating
the intermediary step of collation during which some errors (intentional and unintentional) had
occurred. (2) An additional day is now allowed for district teams to report spray coverage to the
central office, reducing the time pressure which had led to unintentional errors. (3) A stringent
tracking and monitoring system has been instituted. Specifically: data verification is performed


                                                                                              13
                                                                                       Appendix II


by: team leaders, who review 100% of the spray operator cards daily; team supervisors, who
review 50-100% of cards received from team leaders daily; district M&E coordinators, who
review over 40% of cards and conduct daily home audits to ensure that homes being recorded
were actually sprayed; district operations managers, who review approximately 20% of cards
and conduct daily home audits; data entry clerks who review all cards to ensure that data is
complete before entering into MS Access; and regional supervisors who conduct data audits,
review of data entered into the database, and home audits. The PMI activity manager has made
two site visits to Northern Region since the audit, during which he verified that the new system is
in place and functional.

Based on the actions taken, USAID/Ghana requests resolution and closure of Recommendation
No. 1 upon issuance of the Audit Report.


Recommendation No 2:
We recommend that USAID/Ghana update Mission Order 203-1 to require activity managers to
perform and document periodic data testing as part of their monitoring visits.

Management Decision and Action Taken:
USAID/Ghana’s previous Mission Order addresses data validation and verification during the
Data Quality Assessments (DQA), however it does not provide direction specifically targeted to
Activity Mangers/AOTRs/COTRs during monitoring visits. USAID/Ghana is currently updating
the Mission Order to incorporate the new evaluation policy and will include data validation and
verification as a required activity for teams when they conduct site visits. Draft monitoring
forms have been designed for this purpose and USAID/Ghana will mainstream this into its
monitoring and management of existing and upcoming projects, including those under PMI. The
Mission anticipates finalizing the updated Mission Order 203-1 by October 31, 2011.

Based on the actions taken USAID/Ghana requests that Recommendation No. 2 be considered
resolved upon issuance of the Audit Report. Closure of Recommendation No. 2 will be
requested when Mission Order 203-1 is approved and issued.


Recommendation No 3:
We recommend that USAID/Ghana include data validation for all President’s Malaria Initiative
indicators in the planned data quality assessment for health programs.

Management Decision and Action Taken:
USAID/Ghana will conduct a Data Quality Assessment (DQA) for all of the Health Office’s
indicators, including malaria, in September and anticipates completing the assessment by
October 2011. The DQA is a mandatory requirement the purpose of which is to ensure that
USAID/Ghana and Implementing Partners are aware of the strengths and weakness of data as
determined by the standards of validity, integrity, precision, reliability, and timeliness. The
DQA reports on the extent to which the data integrity can be trusted to influence management
decisions and makes recommendations for improving data weaknesses.




                                                                                                14
                                                                                    Appendix II


Responding to the recommendations in the Audit and the findings from the DQA Team, the 2011
DQA Report will address both the frequency and thoroughness of Research Triangle Institute’s,
the Promoting Malaria Prevention and Treatment project, and other malaria control projects’ data
verification efforts and periodic data testing. USAID/Ghana will continue to adhere to the Data
Quality Assessment (DQA) requirements provided by the Office of the Director of US Foreign
Assistance; that a DQA must be completed every three years for an indicator and if a new
indicator is being selected, the first DQA must be undertaken within six months before results
are reported to Washington. USAID/Ghana will apply these requirements when conducting the
September 2011 DQA for the Health Office’s indicators.

Based on the actions taken, USAID/Ghana requests that Recommendation No. 3 be considered
resolved upon issuance of the Audit Report. Closure of Recommendation No. 3 will be
requested when the September 2011 DQA is completed.


Recommendation No 4:
We recommend that USAID/Ghana, in conjunction with University Research Company, include
standard PMI indicators in the Promoting Malaria Prevention and Treatment Program’s
performance management plan.

Management Decision and Action Taken:
The Mission agrees with the audit recommendation to update the Promoting Malaria Prevention
and Treatment Program’s (ProMPT) performance management plan (PMP). The Mission and
the project agreed in December (email correspondence attached as Attachments 2 and 3) that the
PMP would be updated, but this action has been excessively delayed. The USAID AOTR and
the ProMPT project have agreed to an updated PMP that includes indicators to track all training
activities and people trained. Attachment 4 is the revised ProMPT PMP indicator list which was
approved on August 30, 2011.

Based on the actions taken, USAID/Ghana requests resolution and closure of Recommendation
No. 4 upon issuance of the Audit Report.


Recommendation No 5:
We recommend that USAID/Ghana, in conjunction with University Research Company, develop
and implement a plan for the Promoting Malaria Prevention and Treatment Program to verify
data reported to the mission.

Management Decision and Action Taken:
The Mission shares the auditors’ concern to ensure that data reported to USAID/PMI is valid,
verified, and appropriately substantiated by supporting documentation. The Mission has worked
with the ProMPT project staff to revise the procedure and processes for activity record keeping.
The revised Activity Record-Keeping Procedures and Processes (Attachment 5) was approved by
the Chief of Party and Deputy Chief of Party to take effect on September 1, 2011.




                                                                                             15
                                                                                              Appendix II


Based on the actions taken, USAID/Ghana requests resolution and closure of Recommendation
No. 5 upon issuance of the Audit Report.


USAID/Ghana requests that the following clarifications be included in the final Audit Report
(relevant text is highlighted in yellow in the body of the report):

    	 Page 1, paragraph 1, “The World Health Organization reported … and estimated that there
       were 3.7 million reported cases of malaria…”: The Ghana Health Services (GHS) releases
       data on the number of malaria cases reported by health facilities in Ghana. The GHS number is
       then picked up by other organizations such as WHO. The WHO did not estimate 3.7 million
       reported malaria cases in Ghana.
    	 Page 1, paragraph 2, “…the President’s Malaria Initiative (PMI), a 5-year…”: PMI was
       originally a 5-year initiative. However, the 2008 Lantos-Hyde Act expanded PMI for 2009-2013
       (http://www.pmi.gov/about/index.html).
    	 Page 2, paragraph 3, “progress on some results faltered…the mission fell short of its target
       for the number of treatments procured for the two-year period…”: The report accurately
       notes that the Mission did not procure the targeted number of ACTs, falling short of its target for
       this specific commodity. However, the Mission considers the change in the ACT procurement a
       positive result rather than a faltering on progress. When the circumstances in Ghana changed,
       PMI had the flexibility to leverage the support from other donors to ensure that Ghana had the
       resources to meet its ACT needs and then use the PMI resources to procure and fill gaps in other
       necessary malaria treatment pharmaceuticals. The procurement change followed PMI approval
       processes, avoided a potential overstock of a perishable commodity, and helped Ghana to make
       progress on prompt and appropriate treatment of malaria patients.
    	 Page 2, bullet 2 “The implementer intentionally inflated spraying data and made data-entry
       errors”: As written, the bullet seems to imply that the implementer as a whole intentionally
       inflated data. However, the detailed report specifies that data was intentionally inflated in two
       sub-districts, and that other data entry errors appeared to be largely unintentional. (Of note, both
       sub-districts fell under the same district data manager, who was let go by RTI in 2010). Please
       consider rephrasing this bullet to indicate that the implementer had inadequate controls in place to
       identify and correct intentional and unintentional inaccuracies.
    	 Page 4, paragraph 2, “…increase the number of pregnant women sleeping under bed
       nets…”: Please note that the net distribution and hang-up campaigns are intended to increase the
       number of children under five years old and pregnant women sleeping under bed nets.
    	 Page 4, paragraph 2, “… USAID/Ghana worked with ProMPT and other donors…”: To be
       clear about the relationships among the various organizations supporting the net distribution
       campaign, it would be more accurate to state that "... USAID/Ghana worked through the ProMPT
       and DELIVER projects and in partnership with the Government of Ghana and other donors to
       implement..."
    	 Page 5, paragraph 1, “…ProMPT campaign volunteers.”: The net campaign is led by the
       Ghana Health Services (GHS) which received substantial technical assistance, financial support,
       and commodities from PMI through the ProMPT and DELIVER projects. Please change the
       phrase to "...because of guidance from GHS campaign volunteers who received training and
       substantial support from the PMI/ProMPT project” or similar language to reflect the GHS
       leadership.
    	 Page 5, paragraph 3, “The government of Ghana plans to do a large Demographic and
       Health Survey in 2012, which should reveal whether the prevalence of malaria has
       decreased in the Northern Region.”: The Demographic and Health Survey will not reveal
       whether the prevalence of malaria has decreased. The GoG is conducting a Multi-Indicator


                                                                                                        16
                                                                                              Appendix II


        Cluster Survey (MICS) in 2011 and a Demographic and Health Survey in 2013, both with support
        from PMI and USAID. Both surveys will provide important information on PMI's progress
        toward meeting objectives (e.g. LLINs owned and used, etc.) but neither survey will measure
        malaria prevalence. The 2011 MICS will measure parasitemia (a measurement of the # of
        parasites present in a blood sample) which will provide baseline parasitemia levels at the regional
        level. A PMI funded anemia and parasitemia survey implemented by PMI in Northern Region is
        currently underway and it is expected to measure the impact on parasitemia of IRS when added to
        LLINs.
   	   Page 6, paragraph 4, “Team leaders’ reporting cards contained falsified data.”: Please
        quantify, from the cards sampled, the number or percentage of team leaders who manipulated
        data.
   	   Page 7, paragraph 2, first line: Do you mean “while” rather than “although”?
   	   Page 7, paragraph 4, “Although the mission conducted as many as nine site visits per year
        related to spraying activities, the site visits did not include the data verification necessary to
        identify these types of errors.”: The audit report is correct in noting that site visits did not
        include sufficient data verification. However, site visits did include other important aspects of
        program monitoring, such as quality of implementation and compliance with environmental
        requirements.
   	   Page 7, paragraph 4, “Furthermore, the health office’s most recent DQA, conducted in
        April 2008, did not include data validation for the current PMI indicators.”: The audit
        report is correct in noting that the April 2008 DQA did not include data validation for the current
        PMI indicators. However, please note that no data was available for PMI indicators at the time of
        the 2008 DQA because PMI launched in December 2007, four months before the 2008 DQA.
   	   Page 8, paragraph 2&3, “The Mission reported 14,008 people trained in 2010, and although
        the training of 8,383 people was attributable to ProMPT, its PMP did not include this
        clearly defined indicator. The absence of this indicator in the PMP meant that the ProMPT
        program did not separately track the total number of people trained in malaria treatment
        or prevention during the year.”: The audit report correctly notes that the ProMPT PMP
        did not include an indicator to track all people trained. Taking this point in context, at the
        inception, PMI and the ProMPT project worked together to ensure that the ProMPT PMP
        indicators conformed with standard PMI indicators. At that time, PMI and ProMPT
        planned extensive training of health care workers in case management and prevention of
        malaria in pregnancy and the PMP included the standard PMI indicator for tracking
        training of health workers in case management and malaria in pregnancy. As the
        magnitude of trainings related to the net campaigns and other malaria prevention
        activities grew, the ProMPT project and PMI worked together to fully capture this
        additional training data. The Mission engaged in written dialogue with ProMPT to name
        the specific criteria that qualified events as training. This was a necessary, practical step
        forward prior to changing the PMP. PMI and ProMPT agreed in December 2010 (see
        attached email correspondence) that the project PMP needed to be updated. However,
        the Mission recognizes that the PMP update has been overly delayed and agrees with
        both recommendations related to the ProMPT project.

Please contact us if there are any questions or clarifications before the final audit report is issued.




                                                                                                        17
                                                                                         Appendix III



MISSION PERFORMANCE
USAID/Ghana’s Performance on Selected Indicators in FY 2009 Performance Plan and Report
(Audited)
            Indicator           Target    Result      Over/              Explanation
                                                     (Under)
 Number of insecticide-treated
 nets purchased with U.S.        460,000   490,599     30,599 Target exceeded
 Government (USG) funds
 Number of houses sprayed
                                 126,210   141,621     15,411 Target exceeded
 with USG support
                                                                Training delayed although
 Number of people trained in                                    mission waited for the
 malaria treatment or             11,341     8,519     (2,822) Ministry of Health to define
 prevention with USG funds                                      a policy integral to the
                                                                training program
                                                                Donors including the World
 Number of artemisinin-based
                                                                Health Organization and
 combination therapy
                                                                China provided ACTs,
 treatments (ACTs) purchased   1,750,000 1,142,759   (607,241)
                                                                creating an oversupply and
 and distributed through USG
                                                                limiting the number USAID
 support
                                                                needed to provide

USAID/Ghana’s Performance on Selected Indicators in FY 2010 Performance Plan and Report
(Audited)
            Indicator          Target    Result       Over/              Explanation
                                                     (Under)
 Number of insecticide-treated
 nets purchased with USG        860,000   955,000      95,000 Target exceeded
 funds
                                                                Target incorrectly
                                                                calculated;* spraying
                                                                program was actually
 Number of houses sprayed
                                180,000   169,924     (10,076) successful in FY 2010,
 with USG support
                                                                spraying 97 percent of
                                                                structures in targeted
                                                                districts
                                                                Training delayed although
 Number of people trained in                                    mission waited for the
 malaria treatment or            18,500    14,008      (4,492) Ministry of Health to define
 prevention with USG funds                                      a policy integral to the
                                                                training program
                                                                The mission did not
 Number of ACTs purchased
                                                                purchase any ACTs
 and distributed through USG    600,000         0    (600,000)
                                                                because of an oversupply
 support
                                                                in the country

* The target for FY 2010 was overestimated by 20,000 when a FY 2011 only district was mistakenly
included in the FY 2010 population count. The activity manager caught the error and revised the target
before approval of the activity’s FY 2010 work plan but after the target was set in the FY 2010
USAID/Ghana Malaria Operational Plan. The error was a one-time mathematical mistake that did not
indicate a systematic problem with targets.




                                                                                                   18
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
